HHS/OIG, Audit -"Review of Texas's Accounts Receivable System for Medicaid Provider
Overpayments,"(A-06-05-00041)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Texas's Accounts Receivable System
for Medicaid Provider Overpayments," (A-06-05-00041)
April 25, 2006
Complete
Text of Report is available in PDF format (249 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State of Texas (State) reported Medicaid provider
overpayment adjustments and reclaiming adjustments in accordance with Federal requirements.  The
State did not report 48 overpayment adjustments totaling approximately $1.91 million (approximately
$1.21 million Federal share) in accordance with Federal requirements.  This resulted
in potentially higher interest expense to the Federal Government of approximately $19,964.  The
untimely overpayment adjustments occurred because the State did not have reconciliation procedures
in place to verify that all reportable Medicaid provider overpayments were included on its
CMS-64s [Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,
Form CMS-64] within the required timeframe.  The State also did not have written policies
and procedures in place to ensure compliance with Federal requirements related to submitting
reclaiming adjustments.  We recommended that the State:  (1) continue its reconciliation
procedures to ensure that future overpayments are reported timely on the CMS-64s in accordance
with Federal criteria; and (2) verify that the written policies and procedures that it is
currently developing ensure that future reclaiming adjustments are reported in accordance
with Federal requirements.  The State agreed.